APPENDICES

1a
APPENDIX A
United States Court of Appeals
for the Second Circuit
United States of America,
Appellee-Cross-Appellant,
v.
Lawrence Johnson,
Defendant-Appellant-Cross-Appellee.
Nos. 18-2358-cr, 18-2467-cr
Decided: June 17, 2020
Before Parker, Livingston, and Park, Circuit Judges.
SUMMARY ORDER
Defendant-Appellant-Cross-Appellee Lawrence
Johnson (“Johnson”) appeals from a judgment entered
August 1, 2018, following jury trial, convicting Johnson
of one count of being a felon in possession of a firearm
in violation of 18 U.S.C. § 922(g)(1) and sentencing him
principally to 96 months’ imprisonment and five years
of supervised release. Johnson raises numerous challenges to his conviction, arguing (1) that the Supreme
Court’s decision in Rehaif v. United States, 139 S. Ct.
2191 (2019), requires that his conviction be vacated or
an order of dismissal entered; (2) that the district court
erred in instructing the jury with respect to scienter
and the availability of an innocent possession defense;
(3) that vacatur of the conviction is required due to
prosecutorial misconduct; and (4) that the district court
erred in its pretrial evidentiary ruling precluding
cross-examination of a police officer witness regarding
a Civilian Complaint Review Board (“CCRB”) determination. The government cross-appeals, arguing that
Johnson must be resentenced in light of this Court’s

2a
decision in United States v. Thrower, 914 F.3d 770 (2d
Cir. 2019). For the reasons stated below, we are unpersuaded by Johnson’s arguments and agree with the
government that resentencing is necessary. We assume
the parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.
1. Johnson’s Rehaif Arguments
Johnson first contends that, because the indictment failed to allege the knowledge-of-status that Rehaif requires to be demonstrated at trial, the district
court lacked subject matter jurisdiction over his case.
Relatedly, he argues that the indictment’s deficiencies
amounted to a due process violation because he was
never given notice of § 922(g)‘s knowledge-of-status requirement.
Neither of these arguments has merit. As an initial
matter, Johnson’s jurisdictional argument has been
squarely foreclosed by this Court’s decision in Balde.
See United States v. Balde, 943 F.3d 73, 92 (2d Cir.
2019) (holding that “the indictment’s failure to allege
that [the defendant] knew. . . [his § 922(g) status] was
not a jurisdictional defect”); see also United States v.
Keith, 797 F. App’x 649, 651 (2d Cir. 2020). Johnson’s
due process argument fares no better. “[A]s we have already repeatedly held, an indictment which charges a
statutory crime by following substantially the language
of the statute is amply sufficient, provided that its generality neither prejudices defendant in the preparation
of his defense nor endangers his constitutional guarantee against double jeopardy.” United States v. Palmiotti, 254 F.2d 491, 495 (2d Cir. 1958) (internal quotation
marks omitted). Here, even on the dubious assumption
that Johnson’s due process argument would otherwise
have any merit, he has identified no concrete prejudice
stemming from any deficiency in the indictment. While

3a
Johnson alludes to the possibility that he would have
been better able to prepare for trial had he been made
aware in the indictment that his own knowledge of his
felon status would need to be shown by the government
at trial, he points to no specific defense that he could
have raised with respect to this requirement. Indeed, it
is patently clear that he would have no such defense.
According to the PSR, Johnson had at least four prior
felony convictions for which he received lengthy sentences, each well exceeding one year. See PSR ¶ 26 (attempted robbery in the second degree; sentence of 18 to
54 months’ custody); ¶ 28 (criminal sale of a controlled
substance in the third degree; sentence of 6 to 12 years’
custody); ¶ 30 (attempted robbery in the second degree;
sentence of 42 months’ custody); ¶ 31 (criminal possession of a controlled substance with the intent to sell in
the fifth degree; sentence of 30 months’ custody). On
this record, it is unsurprising that Johnson cannot
point to any concrete prejudice stemming from a lack of
notice as to the need for his knowledge-of-status to be
shown at trial, and his due process argument therefore
fails.
Johnson next challenges the sufficiency of the evidence, arguing that the trial record lacks evidence that
could have permitted a reasonable jury to find that the
government proved his knowledge of his felon status.
Johnson failed to argue in the district court that the
evidence was insufficient with respect to his knowledge
that he was a felon, and we therefore review his claim
solely for plain error. See United States v. Tagliaferri,
648 F. App’x 99, 101 (2d Cir. 2016) (“The rule of our
Circuit is that a Rule 29 motion that identifies specific
grounds for a judgment of acquittal forfeits grounds
not raised in that motion.” (first citing United States v.
Delano, 55 F.3d 720, 726 (2d Cir. 1995); then citing

4a
United States v. Rivera, 388 F.2d 545, 548 (2d Cir.
1968)).
Accordingly, Johnson must demonstrate that “(1)
there is an error; (2) the error is clear or obvious, rather than subject to reasonable dispute; (3) the error
affected the appellant’s substantial rights; and (4) the
error seriously affects the fairness, integrity or public
reputation of judicial proceedings.” Balde, 943 F.3d at
96 (internal quotation marks omitted). As this Court
made plain in United States v. Miller, 954 F.3d 551 (2d
Cir. 2020), on the record here, Johnson cannot satisfy
the fourth prong of plain error review. Just as in Miller, the error did not “seriously affect the fairness, integrity, or public reputation of judicial proceedings,” as
required in order to grant relief on plain error review;
“[t]o the contrary ... accepting [Johnson’s argument]
would have that effect.” Id. at 559 (internal quotation
marks and alterations omitted). That is because, as in
Miller, Johnson “stipulated to his § 922(g)(1) qualifying
status,” such that “at trial he likely would have sought
to exclude, and would have been successful in excluding, the details pertaining to his prior offense as unnecessary and prejudicial embellishment on his stipulation.” Id. (citing Old Chief v. United States, 519 U.S.
172, 192 (1997)). Here, too, this Court “will not penalize the government for its failure to introduce evidence
that it had but that, prior to Rehaif, it would have been
precluded from introducing.” Id. at 559–60. The “reliable evidence in the record on appeal”—specifically, the
PSR evidence of Johnson’s extensive prior felony convictions and lengthy sentences discussed above—
”removes any doubt that [Johnson] was aware of his
membership in § 922(g)(1)‘s class” and that Johnson
“would have stipulated to knowledge of his felon status
to prevent the jury from hearing evidence of his actual
sentence.” Id. at 560. The fourth-prong analysis is par-

5a
ticularly clear on this record, where the government
actually moved in limine to be permitted to question
the defendant for impeachment purposes, should he
choose to testify, regarding his two most recent felony
convictions, and Johnson opposed that motion on the
ground that his prior convictions were not proper impeachment evidence. Thus, Johnson cannot demonstrate plain error with respect to the sufficiency of the
trial evidence.
Finally, to the extent Johnson also challenges the
district court’s failure to instruct the jury as to the
knowledge-of-status requirement, that argument fails
for the same reasons. In order to preserve a claim of
instructional error, “[a] party who objects to any portion of the instructions or to a failure to give a requested instruction must inform the court of the specific objection and the grounds for the objection before the jury
retires to deliberate.... Failure to object in accordance
with this rule precludes appellate review, except as
permitted under Rule 52(b).” Fed. R. Crim. P. 30(d).
Johnson’s objections at trial with respect to the instructions on scienter as to the statute’s possession element did nothing to “direct the trial court’s attention
to the contention” now “raised on appeal”—namely, a
failure to instruct the jury as to scienter with respect to
the status element. United States v. Masotto, 73 F.3d
1233, 1237 (2d Cir. 1996) (internal quotation marks
omitted). Accordingly, we review Johnson’s argument
based on Rehaif instructional error for plain error
which, as explained above, he cannot demonstrate. Accordingly, Rehaif offers no basis for this Court to vacate Johnson’s conviction.
2. Johnson’s Jury Instruction Arguments
Johnson next contends that his conviction must be
vacated because, in a pretrial ruling, the district court
refused to instruct the jury as to an innocent posses-

6a
sion defense and because, at trial, the court affirmatively instructed the jury that “[w]ell-meaning possession is not a defense to the charge in this case.” A. 212.
We are unpersuaded.
As to the district court’s pretrial ruling, even assuming that the issue was adequately preserved such
that our review is de novo, we conclude that, in the circumstances of this case, the court did not err in refusing to instruct the jury as to an innocent possession defense. “A federal court may decline to instruct on an affirmative defense ... when the evidence in support of
such a defense would be legally insufficient.” United
States v. White, 552 F.3d 240, 246 (2d Cir. 2009) (internal quotation marks omitted). While this Court has
yet to rule definitively on the existence of an innocent
possession defense to § 922(g), our prior cases have
made clear that the defense is not available “where the
possession was not momentary or only for as long as
necessary to deal with a justifying necessity of some
kind.” United States v. Miles, 748 F.3d 485, 490 (2d
Cir. 2014) (internal quotation marks, alterations, and
citations omitted) (first citing United States v. Paul,
110 F.3d 869, 872 (2d Cir. 1997); then citing White, 552
F.3d at 249). As Paul makes clear, a “momentary” possession must be fleeting, such as picking up a weapon
dropped by a police officer and immediately handing it
back to the officer; it thus does not include, as here,
carrying a gun down the street for purposes of taking it
to a police precinct, particularly when the defendant
was in possession of a working cell phone and could
have contacted police. Paul, 110 F.3d at 872; see also
Miles, 748 F.3d at 490. And White further clarifies that
a “justifying necessity” must be one involving an imminent danger, such as a threat of serious physical injury
or death. White, 552 F.3d at 247–48. Johnson points to
no such circumstance in this case. Thus, even taking

7a
into consideration the facts set forth in Johnson’s affidavit, there would have been no evidentiary basis in
this case for an innocent possession defense, and the
district court’s refusal to instruct the jury as to the defense was not error.
Johnson’s objection to the court’s instruction that
“[w]ell-meaning possession is not a defense to the
charge in this case” is likewise unavailing. A. 212. We
agree with Johnson that his objection was adequately
preserved, as defense counsel clearly objected to this
language at the charge conference and, contrary to the
government’s position, did not abandon the objection at
the sidebar following summations. While our review is
therefore de novo, we “will not find reversible error unless the charge either failed to inform the jury adequately of the law or misled the jury as to the correct
legal rule.” United States v. Henry, 888 F.3d 589, 598
(2d Cir. 2018) (internal quotation marks omitted). “We
do not review portions of jury instructions in isolation,
but rather consider them in their entirety to determine
whether, on the whole, they provided the jury with an
intelligible and accurate portrayal of the applicable
law.” United States v. Ford, 435 F.3d 204, 210 (2d Cir.
2006) (internal quotation marks and alteration omitted).
Viewed in context, the “well-meaning possession”
instruction, far from constituting error, was a necessary antidote to defense counsel’s arguments with respect to innocent possession. The language was clearly
situated within the district court’s instructions as to
the possession element of the statute, rather than the
status element, and served as the culmination of several sentences explaining that an innocent possession
defense was not available in this case. As explained
above, the evidentiary record would have been insufficient to support the innocent possession defense even if

8a
Johnson had testified at trial consistently with his affidavit; given his decision not to testify, the innocent
possession defense was plainly without support.1 Contrary to Johnson’s contention, the challenged instruction did not vitiate the “knowing” mens rea requirement with respect to Johnson’s conduct; rather, it
made clear that, in this case, motive could not excuse
the defendant’s possession of a firearm. Accordingly,
we reject Johnson’s objections to the district court’s jury instructions.
3. Johnson’s Other Arguments
Johnson next contends that his trial was fundamentally unfair due to certain statements made by the
prosecution in its opening and summations, including
stating that it was illegal for a felon to possess a gun
for any reason and referring to Johnson’s statements to
police as a “confession.” He further asserts that the
government obtained his conviction through perjured
testimony. These arguments have no merit. As to the
government’s allegedly improper comments, Johnson
cannot demonstrate, as he must, “(1) that the prosecutor’s remarks were improper and (2) that the remarks,
taken in the context of the entire trial, resulted in substantial prejudice.” United States v. Bautista, 23 F.3d
726, 732 (2d Cir. 1994). The prosecutors’ comments
tracked the jury instructions given by the district court
and were within the bounds of ordinary advocacy.
Moreover, the supposedly perjured testimony to which
Johnson points amounts to nothing more than inconsistencies in the police officer witness testimony which
were fully explored in cross-examination and argued as
1

Indeed, absent any testimony by Johnson, the only evidence before the jury with respect to the duration of his possession was a
police officer’s testimony that Johnson had stated he had obtained
the gun “a day or two ago.” A. 80.

9a
credibility issues to the jury and which, in any event,
had no bearing on the jury’s determination in light of
the unavailability of the innocent possession defense in
this case.
Equally unpersuasive is Johnson’s contention that
the district court abused its discretion in precluding
cross-examination of a police officer witness regarding
a CCRB finding of a false official statement in the
course of a CCRB investigation. Federal Rule of Evidence 403 permits the district court to “exclude relevant evidence if its probative value is substantially
outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly presenting cumulative evidence.” “Under Rule 403, so long as
the district court has conscientiously balanced the proffered evidence’s probative value with the risk for prejudice, its conclusion will be disturbed only if it is arbitrary or irrational.” United States v. Awadallah, 436
F.3d 125, 131 (2d Cir. 2006). Here, the district court
diligently assessed the probative value of the evidence,
found that probative value to be limited, and determined that the minimal probative value was substantially outweighed by a “real risk of distraction” and
concerns regarding a potential “trial within a trial.” A.
54, 56. This determination was well within the bounds
of the court’s discretion and therefore was not error.
4. Government’s Cross-Appeal as to Sentencing
The government argues that vacatur of the sentence is required in light of this Court’s decision in
United States v. Thrower, 914 F.3d 770 (2019), which
was issued approximately six months after sentencing
in this case. Thrower held that “the New York offense
of robbery in the third degree, which like every degree
of robbery in New York requires the common law element of ‘forcible stealing,’ is a ‘violent felony’” under

10a
the Armed Career Criminal Act (“ACCA”) and that “the
New York attempted robbery statute, by its own terms,
matches the ACCA definition of a ‘violent felony.’” Id.
at 776. Johnson essentially concedes that Thrower invalidates the district court’s determination that Johnson was not subject to enhanced sentencing under ACCA, arguing only that this Court should reconsider
Thrower.
This panel is bound by the Court’s decision in
Thrower, which, as explained in Brown v. United
States, 752 F. App’x 108, 109 (2d Cir. 2019), dictates
that Johnson’s 1985 conviction for attempted seconddegree robbery under New York law constitutes a predicate offense for ACCA purposes, rendering the district
court’s sentence procedurally unreasonable. See United
States v. Cavera, 550 F.3d 180, 190 (2d Cir. 2008) (en
banc). Even if this panel were free to reconsider
Thrower, Johnson’s only argument as to why Thrower
was wrongly decided was recently rejected by this
Court in an analogous context. See Kondjoua v. Barr,
961 F.3d 83, 91 (2d Cir. May 28, 2020) (holding that
“[u]sing the unique threat of authorized force in which
police officers are cloaked” to exert physical control
over a victim “rises to the level of force required to
‘overcome a victim’s resistance’” under Stokeling v.
United States, 139 S. Ct. 544, 202 L.Ed.2d 512 (2019)
(quoting Stokeling, 139 S. Ct. at 550)). Accordingly, we
remand for resentencing under 18 U.S.C. § 924(e)(1).
***
We have considered Johnson’s remaining arguments and find them to be without merit. Accordingly,
we REMAND the case for resentencing, and AFFIRM
the conviction in all other respects. The district court is
instructed to vacate the judgment and resentence
Johnson in accordance with this order.

11a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

UNITED STATES OF
AMERICA,
Plaintiff,

15-CR-603 (RRM)
U.S. Courthouse
Brooklyn, New York

-against-

Thurs., May 18, 2018
10:00 A.M.

LAWRENCE JOHNSON,
Defendant.

TRANSCRIPT OF CRIMINAL CAUSE
FOR PRE-TRIAL CONFERENCE
BEFORE THE HONORABLE
ROSLYNN R. MAUSKOPF
UNITED STATES DISTRICT JUDGE
***
[16] THE COURT: Hold off, because that is going to relate to the discussion—
MR. FREEMAN: Right.
THE COURT:—of the text messages, which is one of
the pending issues in terms of the motion. That will go
perfectly with what I will want to discuss with you
about the text messages.
Okay. So just think about—I guess the best way to do
this is get right to the heart of the issue that you are
waiting to hear about, and that is the innocent posses-

12a
sion defense. And so I really, really spent a lot of time
again [17] thinking about innocent possession, how it
is defined across the universe of cases and circuits and
Courts, how Mr. Johnson wants me to charge the jury.
I have the—two affidavits now in support. I am going
to do—I am going to let Mr. Johnson testify. I worry—I
am coming at this today from a little bit of a different
angle. I worry about a pretrial ruling about innocent
possession having a chilling effect on Mr. Johnson’s
right to testify and tell his side of—tell what happened
to the jury because he has a right to tell his side of the
story.
We talked last time a little bit about whether or not
Mr. Johnson may have some other defense specifically
focusing on the elements of possession and the elements of knowing possession. It was a concern of mine
last time. I think my concern is exacerbated a little bit
after reading the 3500 material. There is some evidence in the 3500 material that suggests that the officers may have thought somehow, some way that Defendant was intoxicated or under the influence of
something. And Mr.—I did not press Mr. Freeman last
time about whether or not there were some other types
of defenses. Mr. Johnson has the absolute right to challenge this indictment and the elements of knowing
possession in a way that he—that falls within the
bounds of the law.
And another issue here is that the story of—I also—I
will do it this way: I also worry about parsing the [18]
evidence a little too narrowly, slicing things a little too
thin. There is also a pending motion by the Government to preclude the defense from bringing out the
statement of Mr. Johnson that, I intended to take this
gun to the police station. It is not disputed by the par-

13a
ties that he said something like that to the officers
when they encountered him on the street, and I would
find that statement admissible. I do not—I think it
slices things too thinly to exclude that in describing the
encounter between Mr. Johnson and the police officers
on the street.
If the Government were allowed only to introduce the,
I have a gun—I am not sure how the officers are going
to say—are going to testify to what he said and how he
said it, but that—leaving it like that, without the complete version of what happens at the trial—in the encounter could leave a jury with the impression that Mr.
Johnson’s statement, I have a gun, was somehow—I
would use the word “threatening,” but that might overstate things. But I think there are inferences that
could be drawn just from the statement, I have a gun,
that a jury would not draw if the complete version of
what Mr. Johnson said at the time of his encounter
with the police were put in front of the jury. So I would
let that statement come in. Whether you call it the rule
of completeness; whether you call it—what the legal
principle is underlying it, I think it—I think that needs
[19] to come in.
There is another reason why that statement needs to
come in. They put Mr. Johnson in the back of their police car. They did not handcuff him—this was according to the 3500 material, and I think the proffer that
the Government has made in it motion. They put Mr.
Johnson in the back of the police car. They did not arrest him at the scene. I think the statement as to his
intent to take the gun to the police helps put that in
context. The Government is still going to put in all of
the other things that Mr. Johnson said at the time of
the encounter with the police, what the Government

14a
characterizes as inconsistent stories about how Mr.
Johnson came into possession of the weapon, but all of
the statements put in context the entire encounter. So
that is why I would admit that statement.
Now, let me continue with innocent possession. That
statement in and of itself I would find does not give
rise to an innocent possession defense in and of itself if
there were an innocent possession defense. Because
even under the Mason version of the innocent possession defense, which the defense wants me to adopt,
that statement in and of itself does not—and even in
the context of everything else that Mr. Johnson said to
the police, does not make out all of the other aspects of
the Mason test.
So that having been said, I do not think that—I [20]
would not adopt the Mason test. I do not think there is
a basis in law for an innocent possession defense of the
kind laid out in Mason. I subscribe to the view that
Judge—I think it is Judge O’Scannlain articulates in
The United States versus William Johnson, 459 F.3d
990d. It is the Ninth Circuit, 2006, beginning at
page—let’s see—I think it is Part B of the opinion. It
begins right at the end of page 994, and it really begins
on the top of 995. It starts with the sentence, Given the
foregoing conclusion, you must consider whether the
proposed instruction was, quote, supported by law.
And in the William Johnson in the Ninth Circuit, that
Mr. Johnson asked that the Court adopt the innocent
possession defenses articulated in the DC Circuit. And
for all of the reasons that Judge O’Scannlain articulates in this case, I do not find that the Mason test is
supported by the law.

15a
And I am not going to get into all of it, but let me just
kick off the reasons. First, that some—what I am going
to call the Mason test, innocent possession as defined
by Mason—is wholly absent from the statutory text. It
is for the legislature to decide these types of exceptions
and not a Court to craft a judicially—a judicial exception to 922(g) in particular. And not only is the proposed defense absent from the text, but Congress also
explicitly adopted a [21] mens rea requirement that
negates a Mason-type innocent possession defense. The
knowledge requirement is the only requirement in
922(g). Knowledge refers only to the defendant’s knowing possession of a gun, and it does not require
knowledge that the defendant is violating the law.
There is no willfulness requirement in 922(g), and it
would be the—as Judge O’Scannlain puts it, only the
willfully mens rea invites inquiry into whether the defendant had bad motive or intent.
Next, there is no clearly expressed legislative intent for
the proposed defense to apply for the felon in possession statute. In here Judge O’Scannlain cites the First
Circuit’s case in Teemer, T-E-E-M-E-R. And no—and
also notes that Congress knows how to fashion affirmative defenses of the kind outlined in Mason because
they have done it in connection with other statutes, but
they have not done it with respect to 922(g).
I also find very compelling the policy arguments that
are set out in the Ninth Circuit Johnson case. In particular as the Ninth Circuit writes, The proposed defense would invite perjury, and thus, unduly increase
the Government’s burden in litigating these cases.
Citing Gilbert in the Fourth Circuit, the Ninth Circuit
says, quote, If we were to accept the innocent possession defense, purpose would suddenly become an issue

16a
in [22] a great number of cases. A felon caught possessing a firearm could force the Government to litigate motive simply by asserting that he had just found
the weapon and was on his way to turn it into the police.
It is really only a defendant in many of these cases that
knows the nature and extent of his possession. And as
the Ninth Circuit writes, quote, We will not require the
Government to contest motive in every 922 cases where
the facts will bear an uncorroborated assertion by the
defendant that he innocently came upon a firearm and
was preparing to turn it over to the authorities, when,
alas, he was arrested.
Now, I recognize that in this case there is some evidence that Mr. Johnson said something to the police
about him turning over the firearm to the police. But in
this case, there, at least on the affidavits that have
been presented thus far, as the Government points out,
the defendant’s conduct would not give rise to the innocent—the Mason innocent possession defense because
of other aspects of the test that the affidavit or the affirmation do not make out.
But again getting back to whether or not such a defense exists in law, the Ninth Circuit talks about the
innocent possession defense thwarting congressional
purpose because—and discredits the DC Circuit’s belief
that, quote, It is the retention of a firearm rather than
the brief possession for disposal which poses the danger which is [23] criminalized.
As I mentioned last time, I think Mason—to the extent
that there is any kind of innocent possession defense, I
think the Mason test is broader than what the Second
Circuit might recognize based on the Second Circuit’s

17a
opinions in Williams, White—and I am doing this off
the top of my head, so I might miss a few—who else?
Miles, Paul, the Second Circuit in Miles have said, We
have repeatedly rejected efforts to assert such a defense where the possession was not momentary. Citing
Paul, ...or only for as long as necessary to deal with a
justifying necessity of some kind, citing White.
So the way I view all of these cases, there are really
kind of three categories of what Courts have described
variously as innocent possession. There is Miles, which
I call transitory possession. It is with the intent to turn
it over for a legitimate purpose. But the retention there
is a little bit longer—is a little bit longer, maybe a lot
longer. So that is Category 1, Mason, what I call transitory possession, which the DC Circuit has recognized
and what the Court—what the defense wants me to
adopt here.
There is transitory possession of the Mason test, I
think is different than fleeting or momentary possession. And there are lines of cases, Paul makes reference to this where just quick possession, moving it off a
sofa, passing it to [24] somebody with no intent to retain it, picking it up from the floor of a lunch counter
and giving it back to the police officer from whom it
fell, those types of cases push the outer bounds of the
statute and push the outer bounds of the possessory element of 922(g). And so to me I understand why the
Second Circuit would find that to be a defense, however, you call it—whatever you call it, however you characterize it.
And then there is the group of cases which you could
category variously as falling in the category of necessity, duress, or justification. The classic duress or justification defenses where a defendant as an affirmative

18a
defense has to prove that he was facing the risk of imminent harm and that he had no other—no other way
to protect himself from that imminent harm, and that
he was not the one who recklessly or somehow put
himself in that situation. That is a different category of
what some Courts have characterized as innocent possession. Mr. Johnson does not rely on that based on
what we spoke about the last time. But those types of
situations are more akin, I think, to what the Second
Circuit was talking about in White, where possession
was only for as long as necessary to deal with the justifying necessity of some kind.
Now, granted, there are lots of things that can fall in
between the continuum of fleeting possession to transitory possession to that category of critical-justification
type [25] cases. But as I said, I don’t think Mason,
transitory, a clear intent to evince possession, physical
possession of a weapon—well, let me withdraw that.
I think Mason is broader than any formulation that the
Second Circuit seems to be willing to adopt. And in any
event based on the affidavits that have been submitted,
I do not think they give rise to a jury instruction.
But as I started out saying, I am going to let—I am going to let Mr. Johnson testify in this case to whatever
he wants to testify to, including all of those facts and
circumstances, because I think they are inextricably
intertwined into the story that Mr. Johnson has a right
to tell in front of the jury. I am not precluding—
although, if he were to testify consistently with the affidavits—the affirmations that he has already submitted and only to that which is in the affirmations, I
would find that it does not give rise to a jury instruction along the lines that have been proposed by the defense in their proposed jury instruction. But I want to

19a
emphasize, Mr. Johnson has the right to get up on the
stand, tell his whole story, including his statements—
or including his intention to return the gun to the police, including anything else he wants to talk about
that is relevant and material.
I am not precluding any discussion of what we have
been talking about in terms—well, what is contained in
the [26] affirmation. But again, I find that even if
there were an innocent possession defense along the
lines of what the Second Circuit would reflect or even
in Mason, I do not find that Mr. Johnson—that the
statements in the affirmation, the evidence in the affirmation would give rise to any jury instruction.
We can talk about jury instructions at the charge conference after Mr. Johnson testifies. The Courts have
handled things in different ways, but I do not know
what Mr. Johnson is going to testify to. So questions,
comments, confusion, clarification?
MR. RICHARDSON: All right. So a couple of questions,
Your Honor.
THE COURT: Yes.
MR. RICHARDSON: So assuming Mr. Johnson testified consistent with the affidavit, obviously, the Government has sought an opportunity to rebut some of
the arguments he’s made and—and—and that was in
the context of rebutting an innocent possession defense. Now, as I understand it, the Court is not going
to give an innocent possession jury instruction because
the Court has concluded it is not a defense as a matter
of law. That is my understanding. And -and further,
the defendant has not raised—has not—on the facts
put forth in the affidavit has not raised the possibility

20a
of such defense under—as the Court has read the [27]
law.
If—if—if I’ve got that wrong, let me—let me know. I
may have missed it.
THE COURT: Well, let me just tweak that a tiny little
bit. I don’t know what Mr. Johnson is going to get up
on the stand and say. I guess your question was predicated on his testimony being wholly consistent with
what is in the two affirmations?
MR. RICHARDSON: That’s correct.
THE COURT: I would not give an innocent possession
defense—I would not give an innocent possession instruction to the jury if the testimony is wholly consistent with the two affirmations.
MR. RICHARDSON: Understood.
***

21a
APPENDIX C
United States Court of Appeals
for the Second Circuit

United States of America,
Appellee-Cross-Appellant,
v.
Lawrence Johnson,
Defendant-Appellant-Cross-Appellee.
Nos. 18-2358, 18-2467
Decided: August 27, 2020
ON PETITION FOR PANEL REHEARING
OR REHEARING EN BANC

Appellant-Cross-Appellee, Lawrence Johnson, filed
a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel rehearing,
and the active members of the Court have considered
the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[signature]

22a
APPENDIX D
United States District Court
for the Eastern District of New York
United States of America
v.
Lawrence Johnson,
Defendant.
No. 15-cr-00603
(Filed: April 17, 2017)
DEFENDANT’S AFFIDAVIT IN SUPPORT OF
MOTION FOR TRANSITORY POSSESSION
DEFENSE
Lawrence Johnson, the defendant herein, swears to
the truth of the following under the penalty of perjury:
1. On November 4, 2015, I left my house around
mid-day to take a walk. When I did I accidently left my
keys in the house.
2. I called my roommate Russell and asked him to
come back to the house to let me in, which he did, but
not immediately. While waiting for Russell to return
from Long Island I walked around the area for approximately 45 minutes.
3. Near the end of that 45 minute time span I went
near some bushes to urinate and found a bag which
had in it a hard shell case. I picked the bag up and took
it with me however I did not look inside the case. I did
not know what was in the case.
4. A few minutes later, I went back to my apartment carrying the bag containing the case. The walk to
my apartment only took a few minutes.

23a
5. When I got to the apartment l put the bag down.
I did not open the case at that time.
6. By the time I got home Russell was in the house
and urged me to get my medicine right away because I
had run out of it and he could drive me to pick it up,
which we did.
7. I am supposed to take this medication every day.
8. Russell insisted we take care of filling the prescription right away so he drove me to the pharmacy to
pick up the medication.
9. After returning from picking up the medication
Russell left and I went to the apartment.
10. I looked inside the case and discovered there
was a gun in it.
11. As soon as I realized that there was a gun inside the case I decided to bring the gun to the nearest
precinct, the 75th.
12. I was aware from attending an anti-gun initiative in approximately 2011, where representatives
from NYPD’s 73 Precinct, ATF, the Kings County District Attorney’s Office, and the US Attorney’s Office
were present, that the NYPD had “no questions asked”
gun programs where people could bring guns to turn in
at precincts. This was in my mind as I decided to turn
the gun in to the precinct for my own safety and the
safety of others.
13. The meeting I had attended took place at the
library located at Dumont and Mother Gaston; I was
required to attend at the direction of my parole officer.
14. I left my house right after entering it and finding the gun.
15. When I left the house I immediately started
walking towards the 75 Precinct to turn in the gun.

24a
16. 1 was walking to the precinct when I saw a police car and flagged it down.
17. I wanted the police to know I had a gun which I
was taking to the precinct to turn in so I made that
clear to the officers by stating: I have a gun that I
found and want to turn it in.
18. The police asked me to turn over the gun case
which I did.
19. The interchange was cordial and respectful. I
was not handcuffed. I was not under arrest.
20. The police officers asked me where I obtained
the weapon and I told them in the bushes on Hegeman.
21. This is what happened the day I was arrested
for possession a gun. It is what I remember to the best
of my recollection. lt does not contain everything that
happened.
[signature]

